DECLARATION OF SERVICE BY U.S. MAIL
Case Name:
No.:

Dillingham v. Scruggs, et al.
20-6071

I declare:
I am employed in the Office of the Attorney General, which is the office of a member of the
California State Bar, at which member's direction this service is made. I am 18 years of age or
older and not a party to this matter. I am familiar with the business practice at the Office of the
Attorney General for collection and processing of correspondence for mailing with the United
States Postal Service. In accordance with that practice, correspondence placed in the internal
mail collection system at the Office of the Attorney General is deposited with the United States
Postal Service with postage thereon fully prepaid that same day in the ordinary course of
business.
On November 18, 2020, I served the attached:
WAIVER
by placing a true copy thereof enclosed in a sealed envelope in the internal mail collection
system at the Office of the Attorney General at 455 Golden Gate Avenue, Suite 11000, San
Francisco, CA 94102-7004, addressed as follows:
Jerry Dillingham (C-95149)
Kern Valley State Prison
P.O. Box 6000
Delano, CA 93216
In Pro Se

I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on November
18, 2020, at San Francisco, California.
E. Tornqvist
Declarant
SF2020401516
42432302.docx

/s/ E. Tornqvist
Signature

